ER-B-98-09



              AUDIT                       DISPOSAL OF
             REPORT                 TRITIUM RESIDUES AT THE
                               LOS ALAMOS NATIONAL LABORATORY




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL               JULY 1998
   OFFICE OF AUDIT SERVICES
                                      DEPARTMENT OF ENERGY
                                         Washington, DC 20585
                                                   July 15, 1998


MEMORANDUM FOR THE MANAGER, ALBUQUERQUE OPERATIONS OFFICE

FROM:                  Terry L. Brendlinger, Manager
                        Eastern Regional Audit Office
                       Office of Inspector General

SUBJECT:               INFORMATION: Audit Report on "Disposal of Tritium Residues at the Los
                       Alamos National Laboratory"

BACKGROUND

In 1991 the Secretary of Energy directed the Assistant Secretary for Environment, Safety and Health
to form a Task Group to review tritium facility management practices and identify measures to
improve tritium operations. The Task Group issued a report in October 1991 stating that there was
an overall lack of attention to managing tritium residues throughout the Department of Energy
(Department) complex. The Task Group reported problems at specific Departmental sites, including
the Los Alamos National Laboratory (Los Alamos). The Task Group stated that Los Alamos had
not stressed the importance of maximizing tritium utilization; minimizing the generation of tritium
residues, such as scrap and waste; or minimizing the loss of material through environmental releases.
The Task Group found that wastewater containing tritium residues had been stored in the
laboratory’s operating facilities for as long as 2 years without authorization for its disposal, and that
Los Alamos had not prepared a cost analysis to justify disposing of the tritium. One of the Task
Group’s concerns was that some of the stored residues represented a significant potential source of
release to the environment. The objective of this audit was to determine whether Los Alamos
disposed of wastewater containing tritium residues in a safe and cost-effective manner subsequent to
the Task Group's report.

RESULTS OF AUDIT

Contrary to Departmental policy, Los Alamos did not dispose of wastewater containing tritium
residues in a safe and cost-effective manner subsequent to the Task Group's report. Los Alamos had
73 containers with tritium residues, and 11 of the containers were stored for over 8 years. The
tritium can be recovered from at least 31 of the containers using available technology. The
remaining 42 containers may not be suitable for recovery because they may contain materials that
could impair economic recovery or have tritium concentrations too low for economic recovery.
However, Los Alamos did not develop a plan for the treatment and disposal of tritium residues. As
a result, tritium worth about $1 million was not recovered from the wastewater, and the safety and
health risk to workers and the environment was unnecessarily increased.
                                                  -2-


We recommended that the Manager, Albuquerque Operations Office (1) direct Los Alamos to develop, ob-
tain Departmental approval for, and implement plans to treat or dispose of wastewater containing tritium
residues using the most cost-effective technology available; and (2) monitor Los Alamos' progress to en-
sure timely, safe, and cost-effective treatment and disposal.

MANAGEMENT REACTION

Management concurred with the finding and recommendations.
DISPOSAL OF TRITIUM RESIDUES AT THE LOS ALAMOS
NATIONAL LABORATORY


TABLE OF
CONTENTS



                Overview

                Introduction and Objective .........................................................1

                Observations and Conclusions.................................................. 1


                Tritium Residues in Wastewater

                Details of Finding ......................................................................3

                Recommendations and Comments ...........................................5


                Appendix

                Scope and Methodology ............................................................6
Overview

INTRODUCTION AND   In 1991 the Secretary of Energy directed the Assistant Secretary for
OBJECTIVE          Environment, Safety and Health to form a Task Group to review tritium
                   facility management practices and identify measures to improve tritium
                   operations. The Task Group issued a report in October 1991 stating
                   that there was an overall lack of attention to managing tritium residues
                   throughout the Department. The Task Group reported problems at
                   specific Departmental sites, including Los Alamos. The Task Group
                   stated that Los Alamos had not stressed the importance of maximizing
                   tritium utilization; minimizing the generation of tritium residues, such as
                   scrap and waste; or minimizing the loss of material through
                   environmental releases. The Task Group found that wastewater
                   containing tritium residues had been stored in the laboratory’s operating
                   facilities for as long as 2 years without authorization for its disposal, and
                   that Los Alamos had not prepared a cost analysis to justify disposing of
                   the tritium. One of the Task Group’s concerns was that some of the
                   stored residues represented a significant potential source of release to
                   the environment.

                   The objective of this audit was to determine whether Los Alamos
                   disposed of wastewater containing tritium residues in a safe and
                   cost-effective manner subsequent to the Task Group's report.

                   Contrary to Departmental policy, Los Alamos did not dispose of
                   wastewater containing tritium residues in a safe and cost-effective
OBSERVATIONS AND
                   manner subsequent to the Task Group's report. Los Alamos had 73
CONCLUSIONS        containers with tritium residues, and 11 of the containers were stored for
                   over 8 years. The tritium can be recovered from at least 31 of the
                   containers using available technology. The remaining 42 containers may
                   not be suitable for recovery because they may contain materials that
                   could impair economic recovery or have tritium concentrations too low
                   for economic recovery. However, Los Alamos did not develop a plan
                   for the treatment and disposal of tritium residues. As a result, tritium
                   worth about $1 million was not recovered from the wastewater, and the
                   safety and health risk to workers and the environment was unnecessarily
                   increased.




                                                     _______/s/_______________
                                                     Office of Inspector General


Page 1                                                Disposal of Tritium Residues at the
                                                         Los Alamos National Laboratory
         The audit identified internal control weaknesses that management should
         consider when preparing the yearend assurance memorandum on internal
         controls.




                                        _______/s/____________
                                        Office of Inspector General




Page 2                                   Disposal of Tritium Residues at the
                                            Los Alamos National Laboratory
TRITIUM RESIDUES IN WASTEWATER


Los Alamos Stored                As of January 1998, Los Alamos was storing 73 containers with tritium
Large Volumes of                 residues at its Tritium Science Fabrication Facility, Tritium Systems Test
Wastewater                       Assembly, and Weapons Engineering Test Facility. Eleven of the
Containing Tritium               containers were stored for over 8 years. There were only two disposals
Residues                         of tritium-contaminated wastewater at Los Alamos subsequent to the
                                 Task Group's report. The first disposal, in May 1995, involved two
                                 containers. The second disposal, in September 1997, involved one drum
                                 that had leaked and three drums that showed signs of elevated pressure,
                                 thereby presenting a health and safety hazard. Los Alamos over-packed
                                 the four containers and buried them in the radioactive waste burial
                                 ground after more than 6 years of storage in the Tritium Science
                                 Fabrication Facility.

Available Technologies           Los Alamos did not use available technologies to recover tritium from
Were Not Used to                 residues in the wastewater and to reduce the amount of wastewater
                                 requiring disposal. One technology available for this use is the
Recycle Tritium
                                 Palladium Membrane Reactor, which was recently developed at Los
Residues in
                                 Alamos. The technology consists of separating the hydrogen/tritium gas
Wastewater
                                 from the water. After separation, the tritium can be isotopically
                                 separated from the hydrogen gas and would be suitable for reuse. The
                                 process has been shown to be reliable without generating additional
                                 waste.

                                 Departmental Order 5820.2A, Radioactive Waste Management, requires
Department's Policy Is to
                                 that radioactive waste be managed in a safe, cost-effective manner. It
Safely and Economically          also states that the Department's policy is to reduce the amount of
Treat Tritium Waste              radioactive waste requiring disposal and to manage radioactive waste in
                                 a manner which assures protection of employees and the environment.

                                 The Corrective Action Plan to the Report of the Task Group on
                                 Operation of Department of Energy Tritium Facilities (December 1991)
                                 established a milestone of March 1992 for Los Alamos to develop an
                                 action plan and begin implementation of the final disposal plan for its
                                 tritium residues. The report states that because residues vary widely in
                                 the quantity and concentration of tritium, current packaging, and overall
                                 compositions of the various containers, it is unlikely that all residues will
                                 be handled in the same manner. The report also states that the
                                 disposition will depend on such issues as safety, environmental impact,
                                 and cost effectiveness.

                           Despite the direction provided in the Department's corrective action
Complete Disposal Plan Was plan, Los Alamos did not develop a disposal plan for all 73 containers of
Not Developed              its tritium residues. In 1996, Los Alamos did propose to recycle
                           wastewater containing tritium residues at Los Alamos and other
Page 3                                                                                   Details of Finding
                               Departmental sites using a Palladium Membrane Reactor, however,
                               the Department did not approve that proposal. Los Alamos has not
                               developed any comprehensive plan for removing the wastewater
                               containing tritium residues from its facilities.

                               In the absence of a plan, tritium worth about $1 million was not
                               recovered from the containers. Of the 73 containers at Los Alamos,
Tritium Worth $1 Million Was   at least 31 were suitable for the recovery of tritium using the
Not Recovered                  Palladium Membrane Reactor. The 31 containers were suitable
                               because they exceeded the concentration level of 1,000 curies per
                               liter, the point at which Los Alamos considered the tritium
                               recoverable, and because they contained no other materials which
                               would impair the cost effectiveness of recycling operations. For
                               example, some of the other containers were packaged in a second
                               container which contained stabilizing materials such as corn cob
                               fractions and tar. We determined that the tritium in the 31 containers
                               was worth about $1 million based on the average sales price of $2.77
                               per curie between FYs 1990 and 1996.

                               Recycling tritium residues would also reduce surveillance and
                               maintenance costs because the Department could avoid the costs
                               associated with long-term storage and occasional repairs to
                               wastewater containers.

                               In addition to the economical benefits, Los Alamos could have
                               reduced the safety and health risk to workers and the environment by
                               recycling its tritium residues. Tritium in its water form is about
Safety and Health Risk Was     20,000 times more toxic than tritium gas. One of the risks associated
Increased                      with storing wastewater containing tritium is the buildup of pressure
                               in containers caused by tritium decay. When tritium in water decays,
                               it generates gases. The buildup of pressure can eventually lead to a
                               leak in the container which allows tritium to escape into the
                               atmosphere. This risk is illustrated by an October 1995 occurrence,
                               when the Los Alamos Tritium Salt Facility had a release of tritium gas
                               from a leak in a drum which contained contaminated water. During
                               the investigation of the release, Los Alamos personnel determined
                               that two other drums showed symptoms of pressure buildup, and all
                               three containers had to be relieved of excess pressure.




Page 4                                                                           Details of Finding
RECOMMENDATIONS       We recommend that the Manager, Albuquerque Operations Office:

                      1. Direct Los Alamos to develop, obtain Departmental approval for,
                         and implement plans to treat or dispose of wastewater containing
                         tritium residues using the most cost-effective technology available,
                         and

                      2. Monitor Los Alamos' progress to ensure timely, safe, and cost-
                         effective treatment and disposal.


                      Management concurred with the finding and recommendations.
MANAGEMENT REACTION
                      Management stated that it expects Los Alamos to perform an analysis
                      of alternatives for the recovery, disposal, or other disposition of the
                      tritium by March 1, 1999. Also, management stated that the analysis
                      should address issues of environmental and personnel risk and the
                      future need for tritium as well as cost. The Department should then
                      decide on a course of action and require Los Alamos to prepare a plan
                      accordingly. Los Alamos' progress in implementing the plan would be
                      monitored, taking into account funding limitations.


                      Management’s intended actions are responsive to the
AUDITOR COMMENTS      recommendations.




Page 5                                                 Recommendations and Comments
Appendix

SCOPE         The audit was performed at Los Alamos National Laboratory from
              March 1997 through January 1998, and covered the storage and
              disposal of tritium-contaminated wastewater for FYs 1992 through
              1997.

METHODOLOGY   To accomplish the audit objective, we:


                     • Reviewed applicable Federal and Departmental regulations
                       regarding management of radioactive waste,

                     • Researched Departmental studies and reports on
                       technologies available for the treatment and disposal of
                       tritium residues,

                     • Interviewed Department and contractor personnel familiar
                       with the treatment and disposal of wastewater containing
                       tritium residues, and

                     • Reviewed documentation concerning the Department's
                       tritium-contaminated wastewater inventories and plans.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the objective of the audit. Because our
              review was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit. We
              did not rely on computer-generated data during this audit.




Page 6                                                      Scope and Methodology
                                                                                IG Report No. ER-B-98-09

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                Department of Energy Human Resources and Administration Home Page
                                     http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
